<html>
<title> - BALANCING WORK AND FAMILY: WHAT POLICIES BEST SUPPORT AMERICAN FAMILIES?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    BALANCING WORK AND FAMILY: WHAT POLICIES BEST SUPPORT AMERICAN 
                               FAMILIES?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 21, 2007

                               __________

                           Serial No. 110-49

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                                 ______
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
35-807                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Donald M. Payne, New Jersey          Joe Wilson, South Carolina,
Timothy H. Bishop, New York            Ranking Minority Member
Carol Shea-Porter, New Hampshire     Tom Price, Georgia
Phil Hare, Illinois                  John Kline, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 21, 2007....................................     1
Statement of Members:
    Biggert, Hon. Judy, a Representative in Congress from the 
      State of Illinois..........................................     9
        Prepared statement of....................................    11
    DeLauro, Hon. Rosa L., a Representative in Congress from the 
      State of Connecticut.......................................     6
        Prepared statement of....................................     8
    Wilson, Hon. Joe, ranking minority member, Subcommittee on 
      Workforce Protections......................................     4
        Prepared statement of....................................     5
    Woolsey, Hon. Lynn C., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Lindsay, Melissa, bookkeeper, Marlin Steel Wire Products.....    18
        Prepared statement of....................................    20
    Quarberg, Missy, former Wal-Mart employee....................    13
        Prepared statement of....................................    15
    Rowe-Finkbeiner, Kristin, cofounder, MomsRising..............    22
        Prepared statement of....................................    24
    Wankoff, Barbara, director, Workplace Solutions, KPMG........    16
        Prepared statement of....................................    17


                       BALANCING WORK AND FAMILY:
                       WHAT POLICIES BEST SUPPORT
                           AMERICAN FAMILIES?

                              ----------                              


                        Thursday, June 21, 2007

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 1:30 p.m., in 
Room 2175, Rayburn House Office Building, Hon. Lynn Woolsey 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Woolsey, Payne, Bishop of New 
York, Shea-Porter, Hare, Wilson and Kline.
    Also present: Representative McKeon.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Lynn Dondis, Senior Policy Advisor for 
Subcommittee on Workforce Protections; Jody Calemine, Labor 
Policy Deputy Director; Michael Gaffin, Staff Assistant, Labor; 
Joe Novotny, Chief Clerk; Michele Varnhagen, Labor Policy 
Director; Robert Borden, Minority General Counsel; Cameron 
Coursen, Minority Assistant Communications Director; Steve 
Forde, Minority Communications Director; Ed Gilroy, Minority 
Director of Workforce Policy; Rob Gregg, Minority Legislative 
Assistant; Richard Hoar, Minority Professional Staff Member; 
Jim Paretti, Minority Workforce Policy Counsel; Molly Salmi 
McLaughlin, Minority Deputy Director of Workforce Policy; and 
Linda Stevens, Minority Chief Clerk/Assistant to the General 
Counsel.
    Chairwoman Woolsey. A quorum is present. The hearing of the 
Workforce Protections Subcommittee on Balancing Work and 
Family; What Policies Best Support American Families? will come 
to order. Pursuant to committee rule 12(a), any Member may 
submit an opening statement in writing, which will be made part 
of the permanent record.
    I now recognize myself followed by Ranking Member Joe 
Wilson for our opening statements.
    First, I want to thank everybody who is here for coming 
today for what will be the first of a series of hearings before 
this subcommittee on balancing work and family. This is a very 
important topic. It is a serious one for our country because 
most of us work, and our lives revolve around work and family. 
That was certainly the case with me. It has been many, many 
years, but I was a single mother, raising four children. I 
worked full time, at first, for 3 years as the sole breadwinner 
for three of those four children. Then I was remarried, but I 
kept on being a full-time worker, and we were a blended family, 
so I was the mother of four children.
    I was also a human resources professional for over 20 
years, so I know not because of my own experience; I know how 
hard it was for the people who work in our company, the 
families, not just the mothers, but the mothers and fathers--
how hard it was for them to balance coming to work and taking 
care of their children and not having to give one up for the 
other.
    Today, in about 80 percent of families with two parents, 
both parents work, and 75 percent of all mothers, single and 
married, are in the workplace today. Parents work long hours, 
they commute long distances, and they do that to put food on 
the table, and too often they are not even there to sit at the 
table to eat that food with their children.
    As a result, balancing work and family has become an 
important challenge not just for myself, not just for this 
subcommittee, but for our Nation in general. This is made all 
the more difficult because of the lack of family-friendly 
policies in the United States of America, and by family 
friendly, I am talking about paid sick leave, family and 
medical leave that is paid, affordable childcare, flexible 
schedules, just to name a few.
    To appreciate the uphill battle faced by working families, 
here are some statistics to consider. Forty-six million people 
lack health care coverage in this country, including 9 million 
children, or 12 percent of all children in this country do not 
have health care. At least 40,000 kindergartners each day go 
home to an empty house when school is over because we lack 
after-school programs. Only 28 percent of full-time workers 
have flexible schedules that allow them to vary the time that 
they begin and end work, and one-half of private-sector 
employees in this country do not have a single day of paid sick 
leave.
    Our country, while great in many, many ways, is stuck in a 
time warp when it comes to providing workers with help in 
balancing work and their families, and it lags far behind other 
countries in this arena. It is a shame, too, because studies 
have told us that family-friendly policies work. They increase 
recruitment and retention rates, they decrease absenteeism, and 
they improve productivity. For example, Corporate Voices for 
Working Families did a study on work flexibility and found that 
workers with flexible work schedules were 40 to 50 percent more 
committed to their work and 30 percent less likely to leave 
their current employer within a 2-year period.
    There are many good employers in this country, many, and 
they realize that family-friendly policies actually help, they 
do not hurt, their bottom line. Bank of America has a program 
that reimburses workers for childcare. It has found that 
workers who use the program are twice as likely to stay with 
the company as those who do not. At KPMG, the company that Ms. 
Wankoff, one of our witnesses today, works for has great 
benefits for workers, including backup care for children or 
elderly relatives if there is a need, and KPMG's retention 
rates are up.
    But employers need to be encouraged. They need to be 
encouraged to step up to the plate, and we in Congress and in 
other parts of the government have very important roles to play 
in making sure our workers can balance their lives. That is why 
I have introduced the Balancing Act, which puts into place a 
whole host of family-friendly policies, such as paid family and 
medical leave, benefits for part-time workers, improved 
childcare, universal voluntary preschool, before- and after-
school programs, school meals, and a pilot program to explore 
telecommuting.
    That is why Representative Rosa DeLauro is here today and 
has introduced her Healthy Families Act, which will provide 
workers with 7 days of paid sick leave to care for their own 
medical needs and the needs of family members. That is why 
Carolyn Maloney from New York has introduced a bill that would 
allow breastfeeding at the workplace. That is why many others 
have introduced legislation, legislation that proves that we 
know parents should not be put in a situation where they are 
forced to choose between their jobs and their families. We know 
you can, we know you must bridge work and family, and I am so 
anxious to hear from our witnesses today. This is the beginning 
of a series of important hearings we are going to be having.
    [The statement of Ms. Woolsey follows:]

Prepared Statement of Hon. Lynn C. Woolsey, Chairwoman, Subcommittee on 
                         Workforce Protections

    I want to thank everyone for coming here today for what I hope will 
be the first of a series of hearings before this Subcommittee on 
balancing work and family. This is a very important topic and a serious 
one for our country, because most of us work. And our lives revolve 
around work and family.
    That was certainly the case with me. I was a single mother raising 
four children and worked full-time at first as the sole breadwinner and 
then after a second marriage.
    And it was hard.
    I was also a human resource professional for 20 years, so I not 
only know how hard the balance was for me, but how hard it was for the 
people I dealt with over the years. Today, in about 80 percent of 
families with 2-parents, both parents work. And 75 percent of all 
mothers--single and married--are in the workplace today. Parents work 
long hours and commute long distances to put food on the table, and too 
often they aren't there to sit down and eat with their kids. As a 
result, balancing work and family has become a real challenge. This is 
made all the more difficult because of the lack of ``family-friendly'' 
policies in this country.
    To appreciate the uphill battle faced by working families, listen 
to some of these statistics:
    <bullet> 46 million people lack health care coverage in this 
country, including 9 million children--or 12 percent of all children in 
this country;
    <bullet> At least 40,000 kindergartners each day go home to an 
empty house when school is over for lack of after-school programs;
    <bullet> Only 28 percent of full-time workers have flexible 
schedules that allow them to vary the time that they begin and end 
work; and
    <bullet> One-half of private sector employees in this country do 
not have a single day of paid sick leave. Our country, while great in 
many ways, is stuck in a time warp when it comes to providing workers 
with help in balancing work and family.
    And it lags far behind other countries in this arena. It is a shame 
too, because studies have told us that ``family-friendly'' policies 
work. They increase recruitment and retention rates, decrease 
absenteeism and improve productivity. For example, Corporate Voices for 
Working Families did a study on work flexibility and found that workers 
with flexible work schedules were 50 percent more committed to their 
work and 30 percent less likely to leave their current employment 
within a 2-year period. There are many good employers in this country 
who realize that ``family-friendly policies'' actually help, not hurt 
their bottom line.
    Bank of America has a program that reimburses workers for child 
care.
    It has found that workers who use the program are twice as likely 
to stay with the company as those that do not. And KPMG, the company 
that Ms. Wankoff--one of our witnesses here today--works for has great 
benefits for workers, including backup care for children and elderly 
relatives. And KPMG's retention rates are up. But more good employers 
need to step up to the plate, and we in Congress and other parts of 
government have very important roles to play in making sure our workers 
can balance their lives. That is why I have introduced the Balancing 
Act, which puts into place a whole host of ``familyfriendly'' policies, 
such as paid family medical leave, benefits for part-time workers, 
improved
    That is why Representative DeLauro has introduced her Healthy 
Families Act, which will provide workers with 7 days of paid sick leave 
to care for their own medical needs or the needs of a family member.
    And that is why others have introduced legislation to make the 
workplace more ``family friendly.''
    Again thank you for coming today and I look forward to hearing from 
our witnesses.
                                 ______
                                 
    Chairwoman Woolsey. Now, Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairman. I would like to 
thank you for having this hearing today.
    I would also like to extend a warm welcome to our 
witnesses, and I have to tell you that I was particularly 
pleased to see the first two witnesses. A few minutes ago when 
I saw Representative Biggert, I thought certainly that she was 
going to be sitting up here, and she said, ``No. I am a 
witness.'' So this is wonderful. Both of you, thank you for 
being here today.
    I want to thank the other two employees who will appear on 
our second panel for taking time out of their busy schedules or 
time away from their families, as the case may be, to share 
their experiences of work/family balance with members of this 
subcommittee.
    The issue of work/family balance is one confronting most 
workers. The reality of today's workforce is that many workers 
feel pressed for time, time for themselves to further their 
education or to improve their job-related skills, to take up a 
hobby or to volunteer. Others need time to be with their 
children and to be involved in their children's school 
activities, while others need time to care of a sick or an 
elderly relative.
    While the pressures of time fall heavily on working 
parents, particularly those with childcare responsibilities, 
the vast majority of workers face the dilemma of how best to 
balance the demands of work and still have time for personal or 
family commitments and responsibilities.
    In today's competitive economy, companies who want to 
attract and to retain valuable employees recognize that 
progressive, family-friendly policies and flexible work 
arrangements are an important tool. In return for increased 
flexibility, employees are more productive and committed to 
their work. Some workers, primarily those who are management or 
who are salaried employees, are able to benefit from having 
greater flexibility in their weekly work schedules to juggle 
work and family responsibilities, but the Federal law that was 
put in place, that of a 40-hour workweek back in 1938, 
frequently acts as an obstacle to private-sector, hourly paid 
workers who desire regular flexibility in their schedules.
    For example, most of these employees are prohibited under 
the law from choosing to bank overtime hours worked as paid 
time off to be saved up and taken at a later date to tend to 
the needs of their families, yet oftentimes these are the 
people who need flexible work options the most.
    The question is then what can we do to encourage and to 
facilitate a work environment that is family friendly and 
flexible? We must keep in mind--and we will no doubt hear today 
from our witnesses--that employees themselves have different 
needs on different days, just as employers have different 
business considerations depending on the nature and size of the 
company. A one-size-fits-all approach to mandating certain 
benefits or leave programs would have the effect of stifling or 
otherwise limiting innovative methods of helping workers better 
balance work and family responsibilities.
    I am concerned that government interference may produce 
unintended negative consequences, so I look forward to hearing 
today's testimony, and, again, I thank the witnesses for 
agreeing to appear here today.
    I yield back the balance of my time.
    [The statement of Mr. Wilson follows:]

   Prepared Statement of Hon. Joe Wilson, Ranking Republican Member, 
                 Subcommittee on Workforce Protections

    Thank you, Madam Chair. I would like to thank you for having this 
hearing today. I would also like to extend a warm welcome to our 
witnesses, particularly the two employees who will appear on our second 
panel, for taking the time out of their busy schedules or time away 
from their families, as the case may be, to share their experiences on 
work-family balance with the Members of this Subcommittee.
    This issue of work-family balance is one confronting most workers. 
The reality of today's workforce is that many workers feel pressed for 
time: time for themselves to further their education or improve their 
job-related skills, take up a hobby or volunteer; others need more time 
to be with their children and be involved in their children's school 
activities; while others need time to care for a sick or elderly 
relative. And while the pressures of time fall heavily on working 
parents, particularly those with child care responsibilities, the vast 
majority of workers face the dilemma of how best to balance the demands 
of work and still have time for personal or family commitments and 
responsibilities.
    In today's competitive economy, companies who want to attract and 
retain valuable employees recognize that progressive family-friendly 
policies and flexible work arrangements are an important tool. In 
return for increased flexibility, employees are more productive and 
committed to their work.
    Some workers--primarily those who are management or salaried 
employees--are able to benefit from having greater flexibility in their 
weekly work schedules to juggle work and family responsibilities. But 
the federal law that put in place a 40 hour workweek back in 1938 
frequently acts as an obstacle to private sector hourly-paid workers 
who may desire greater flexibility in their work schedules. For 
example, most of these employees are prohibited under the law from 
choosing to bank overtime hours worked as paid time off, to be saved up 
and taken at a later date to tend to the needs of their families. Yet 
oftentimes, these are the people who need flexible work options the 
most.
    The question is then, what can we do to encourage and facilitate a 
work environment that is family-friendly and flexible? We must keep in 
mind--and we will no doubt hear today from our witnesses--that 
employees themselves have different needs, just as employers have 
different business considerations, depending on the nature and size of 
the company. A ``one-size-fits-all'' approach to mandating certain 
benefits or leave programs could have the effect of stifling or 
otherwise limiting innovative methods of helping workers better balance 
work and family responsibilities.
    And so I look forward to hearing today's testimony and again thank 
the witnesses for agreeing to appear today.
                                 ______
                                 
    Chairwoman Woolsey. Now I would like to introduce our very 
distinguished first panel of witnesses who will speak, but we 
will not be going through questions and answers, because, as I 
said, we do not put our Members of Congress in front of us and 
make them go under the scrutiny we put our other witnesses 
under.
    Rosa DeLauro, Congresswoman Rosa DeLauro, has represented 
Connecticut's Third District since 1990. She currently serves 
as the cochair of the House Steering and Policy Committee. She 
is a member of the House Appropriations Committee and chairs 
the committee's Ag-FDA Appropriations Subcommittee. 
Congresswoman DeLauro first introduced the Healthy Families Act 
nearly 10 years ago and has actively sought to help families 
balance their work and family lives. Congresswoman DeLauro 
earned her bachelor's degree with honors from Marymount College 
and a master's degree in international politics from Columbia 
University.
    I am going to introduce Congresswoman Biggert, too. Then we 
will start with Congresswoman DeLauro.
    Congresswoman Judy Biggert is in her fifth term as a 
Representative from the 13th District of Illinois. She 
currently serves on the full Education and Labor Committee as 
well as on the Financial Services and Science and Technology 
Committees. She is also Ranking Member of the House Financial 
Services Subcommittee on Housing and Community Development. 
Representative Biggert served as the cochair of the 
Congressional Caucus on Women's Issues in the 107th Congress. 
She graduated from Stanford University and received her law 
degree from Northwestern University of Law.
    Welcome, both of you. Thank you for being here.
    Ms. DeLauro.

    STATEMENT OF THE HON. ROSA DeLAURO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Ms. DeLauro. Thank you very much, Chairwoman Woolsey. What 
an honor to be here before you and Ranking Member Wilson and to 
share this table with my colleague Judy Biggert and her 
commitment to balancing work and families these days.
    I would just say that this is--and you mentioned that you 
sometimes lose track of the time when you have introduced 
legislation, but it has been 10 years, and I just want to say 
thank you. This is the first hearing we have been able to have 
on the opportunity for paid sick days in the United States. So 
I am very, very pleased of that.
    I just would add one more item to your list of what we can 
do for working families today, and that is to have a Paycheck 
Fairness Act which says that women should be paid 100 cents on 
the dollar and not just 75 cents on the dollar. It would go a 
long way to helping those families balance their economics. 
This is a very, very important issue, and I applaud your 
leadership, and I thank you for holding the hearing.
    It is a battle every day, as you know, to put working 
families center stage. In recent years the shape and role of 
America's working middle-class families have changed. So have 
their economic prospects. In 1975, less than half of mothers of 
school-aged children worked outside the home. Now it is nearly 
70 percent. Today, one in four households are caring for an 
elderly relative, and that number is expected to rise. We have 
today the rising cost of living, the need to balance work and 
family, parents stretched thin, struggling just to make sure 
that their kids get the attention and the care that they 
deserve.
    There is simply no answer, no simple answer, as to how we 
strengthen our working and middle-class families, but there are 
a number of critical steps that we can take, initiatives which 
have proven successful in making opportunity real for families 
and for children, and that is why I really am so proud of the 
Healthy Families Act. I believe it is important. I believe that 
paid sick days are a basic right for people in the workplace. 
More than half of the workforce already has the right to take 
time off when they are sick or when they need to stay home to 
care for a sick child or for an elderly relative.
    The truth is, though, 57 million people in our workforce do 
not have that right. It is something that I think most 
Americans would find shocking. I think most Americans believe 
that being a working parent should not mean having to choose 
between your job, taking care of yourself and taking care of 
your family. Paid sick days are a matter of common sense and a 
matter of values. Yet unlike 145 other nations, the United 
States does not guarantee a single paid sick day to workers, 
not 1 day. We do have family and medical leave, as you have 
pointed out. It provides leave for serious illnesses, but it is 
unpaid, and it only covers about 60 percent of the workforce. 
As a result, nearly half of private-sector workers, including 
more than three-quarters of low-income workers, have no paid 
leave of any kind. They have no paid sick days, no paid 
vacation and no paid personal days. Zero. Nothing.
    The Healthy Families Act, which I introduced with Senator 
Kennedy, would help to alleviate this injustice. It requires 
employers with 15 or more workers to provide 7 days of paid 
sick leave annually for their own medical needs or to care for 
a family member. It is about setting a floor on what we can all 
agree is good corporate citizenship. Ensuring that employees 
are productive and healthy helps businesses as well. Many 
businesses already know, as the Journal of Managerial Issues 
found, offering workers the option of taking time off to care 
for a sick family member has a positive effect on morale and on 
profits.
    Last month we had a National Summit on America's Children, 
which the Speaker put together. Jody Heymann, with the Project 
on Global Working Families, spoke about paid sick days and its 
integral role in maintaining our competitive edge in a global 
economy. She reported that all of the 20 most competitive 
countries, with the exception of the United States, guaranteed 
paid sick days. In fact, 18 of them provide 31 or more days. 
This includes Lesotho and Papua New Guinea. It would seem to me 
that if they could do it, we could do it.
    When working parents have to go to work sick, they risk 
infecting the entire workplace. Then we all pay the price for 
denying employees paid sick days, especially if they work in 
health care, childcare or food service. As an interesting fact, 
well below every other major industry, only 15 percent of 
workers in food service have paid sick days, endangering 
hundreds, even thousands of patrons.
    Let me mention working women, and I will conclude.
    Working women and their families in particular would 
benefit from our bill. We all know that the brunt of the 
responsibility for caring for our children still falls upon 
women. That is just the way it is. Half of all working mothers 
report that they must miss work when a child is sick. Half of 
them do not get paid. When nearly a third of all working 
mothers fear their job evaluations might suffer from missing 
work, imagine what this legislation could mean to them. It is 
about peace of mind.
    I would just say paid sick days will make a difference. It 
is not a silver bullet. We need to embrace the comprehensive, 
profamily agenda, Chairwoman Woolsey, that your legislation, 
the Balancing Act, shows us as having the right path forward.
    Today's families' fortunes are increasingly tied to a more 
volatile economy. We have a weak safety net, stretched thin. 
Those who bear the brunt have a difficult time bouncing back, 
and we have a responsibility, I believe, to confront the unique 
challenges that income insecurity places on working and middle-
class families, and whether it is raising the minimum wage, 
expanding the EITC, supporting childcare, paid equity or paid 
sick days, I believe that our decisions and actions must 
reflect a broader world view that begins with equal opportunity 
and giving people who strive to better themselves the tools 
that they need to succeed. It is about honoring work and 
responsibility, and it is the basis of our shared community.
    Thank you for the good work that you are doing. I thank you 
and your Ranking Member and my colleagues sitting here today 
for listening, and I appreciate the opportunity to testify.
    Chairwoman Woolsey. Thank you, Congresswoman.
    [The statement of Ms. DeLauro follows:]

    Prepared Statement of Hon. Rosa L. DeLauro, a Representative in 
                 Congress From the State of Connecticut

    Good morning. Chairman Woolsey, thank you very much for the 
opportunity to testify before the Subcommittee on Workforce Protections 
today. I appreciate your leadership on this issue and thank you for 
holding this important hearing on work and family.
    As you know, it is a battle everyday to put working families center 
stage. In recent years, the shape and role of America's working and 
middle class families have changed. So have their economic prospects. 
In 1975, less than half of mothers of school-age children worked 
outside the home, now it is nearly 70 percent. Today, one in four 
households are caring for an elderly relative and that number is 
expected to rise.
    These days, with the rising cost of living and the need to balance 
work and family, parents are stretched thin, struggling to make sure 
their children get the attention and care they deserve.
    There is no simple answer when it comes to strengthening our 
working and middle class families. But there are a number of critical 
steps we can take--initiatives which have proven successful at making 
opportunity real for families and children.
    And that is why legislation like the Healthy Families Act is so 
important. Paid sick days are a basic right for people in the 
workplace. More than half of the workforce already has the right to 
take time off when they are sick, or when they need to stay home to 
care for a sick child or elderly relative.
    But the truth is that 57 million people in our workforce do not 
have that right--something I think most Americans would find shocking. 
I think most Americans believe that being a working parent should not 
mean having to choose between your job, taking care of yourself, and 
taking care of your family--that paid sick leave is a matter of common 
sense--of values.
    Yet unlike 145 other nations, the United States does not guarantee 
a single paid sick day to workers--not one day. We do have the federal 
Family & Medical Leave Act, which provides leave for serious illnesses. 
But that is unpaid and only covers about 60 percent of the workforce.
    As a result, nearly half of private sector workers, including more 
than three-quarters of low-income workers, have no paid leave of any 
kind--no paid sick days, no paid vacation, and no paid personal days. 
Nothing.
    The Healthy Families Act, which I introduced with Senator Kennedy, 
would correct this injustice, requiring employers with 15 or more 
workers to provide 7 days of paid sick leave annually for their own 
medical needs or to care for of a family member. This is really about 
simply setting the floor on what we all can agree is good corporate 
citizenship.
    Ensuring that employees are productive and healthy helps businesses 
too. As many businesses already know and as the Journal of Managerial 
Issues found, offering workers the option of taking time off to care 
for a sick family member has a positive effect on morale--and profits.
    Last month, here at our National Summit on America's Children, Jody 
Heymann, with the Project on Global Working Families, spoke about paid 
sick days' integral role in maintaining America's competitive edge in a 
global economy. She reported that all of the 20 most competitive 
countries, with the exception of the United States, guarantee paid sick 
days. In fact, 18 of them provide 31 or more days.
    When working parents must go to work sick, they risk infecting 
their entire workplace, then we all pay the price for denying employees 
paid sick days--especially if they work in health care, child care, or 
food service. Indeed, well below every other major industry, only 15 
percent of workers in food service have paid sick days--endangering 
hundreds even thousands of patrons.
    Working women and their families, in particular, would benefit from 
our bill. We all know that the brunt of the responsibility for caring 
for children still falls upon women--that is the way it is. Half of all 
working mothers report that they must miss work when a child is sick--
and half of them do not get paid. When nearly a third of all working 
mothers fear their job evaluation might suffer from missing work, 
imagine what this legislation could mean to them: peace of mind.
    Of course, while paid sick days will make a tremendous difference, 
it is no silver bullet. We must embrace a comprehensive pro-family 
agenda. Chairman Woolsey, your legislation ``The Balancing Act'' shows 
us the right path forward--paid leave for parents to care for newborns 
and attend school events, quality and accessible child care, in-school 
nutrition, after-school assistance, expanded funds for voluntary 
universal preschool.
    Today, families' fortunes are increasingly tied to an ever more 
volatile economy. Yet with a weak safety net stretched thin, those who 
bear the brunt have a very difficult time bouncing back. We have a 
responsibility to confront the unique challenges that INCOME INSECURITY 
places on working and middle class families. And there is no limit to 
what we can do to improve the odds for their success.
    Whether it is raising the minimum wage, expanding the EITC, or 
supporting child care, pay equity and, yes, paid sick days--I believe 
our decisions and actions must reflect a broader worldview that begins 
with equal opportunity and giving people who strive to better 
themselves the tools to succeed. It is about honoring the work and 
responsibility that is the basis of our shared community.
    Thank you again, Chairman Woolsey, for the opportunity to testify 
this morning.
                                 ______
                                 
    Chairwoman Woolsey. Congresswoman Biggert.

    STATEMENT OF THE HON. JUDY BIGGERT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mrs. Biggert. Thank you, Madam Chairman and Ranking Member 
Wilson and members of the committee. I appreciate the 
opportunity to testify.
    I must say I think I like sitting on the other side of the 
table, where you can ask the questions, a little bit better, 
but it is nice to be here with Congresswoman DeLauro. I do not 
have a chance to serve with Congresswoman DeLauro on other 
committees, so it is nice to have the opportunity to be with 
you.
    The issue of work/family balances is an important one that 
impacts most, if not all, workers at some point in their lives. 
The American workplace has certainly undergone a dramatic 
change in composition, character and demands. What was 
previously a static agricultural- and manufacturing-based 
economy with a mostly male workforce--and I do know that for a 
fact because I was told by professors in law school that I was 
taking the place of someone who should be there, a man, but 
that is a subject for another hearing.
    The workforce has evolved into a fast-paced, global 
services and high-technology environment with nearly equal 
numbers of men and women in the workforce. The movement of 
mothers into the workplace has brought new challenges for the 
American families. Families with two working parents now make 
up a majority of the American families. Nearly two-thirds of 
all mothers with children under the age of 3 are currently in 
the workforce. Yet these changes in the workplace and the 
workforce have not been reflected in the law.
    As you will no doubt hear from the second panel of 
witnesses, Americans feel very strongly about trying to achieve 
a reasonable balance between the demands of a job and the 
responsibilities of a family. While these challenges, perhaps, 
confront working mothers to a greater degree, many workers, 
male and female, are willing to make sacrifices in their jobs, 
in their careers and education to achieve more balance in their 
personal lives.
    Providing working men and women with more control over 
their work schedules should be a no-brainer. Unfortunately, the 
private-sector employees and employers alike are constrained by 
the 1938 Fair Labor Standards Act, or FLSA, and I think it is 
fair to say that FLSA does not permit a great deal of 
flexibility because it was designed for a different workforce 
with different needs.
    This subcommittee previously held a number of hearings on 
FLSA. Out of those hearings came a number of proposals, perhaps 
the most significant of which was the Family Time Flexibility 
Act, or the so-called ``comp time bill.'' The concept behind 
the bill was simple. It was designed to help working men and 
women better manage work and family pressures by providing them 
with increased flexibility to spend quality time with their 
families. The bill proposed a common sense solution to allow 
private sector employees a choice that their colleagues working 
in the Federal, the State and local governments have had for a 
long time. That choice is the option of cash wages or paid time 
and a half off as compensation for working overtime hours. I am 
not suggesting that employees should be required to take 
compensatory time instead of overtime pay nor am I suggesting 
that we alter the way that overtime pay is calculated or that 
we alter the 40-hour workweek.
    What I am suggesting is that we allow private sector 
employers and employees to have an agreement to have the option 
of using comp time, paid time and a half off in lieu of 
overtime pay. Employees could then decide, based on their needs 
and that of their families, whether to choose paid time off or 
extra pay for working overtime. Obviously, there will always be 
working men and women who want and need the extra pay that 
comes from working overtime hours. Likewise, there may be some 
employers who decide that comp time just does not work for 
their particular business, but in situations where employers 
and employees can agree, Congress ought to allow hardworking 
men and women to choose for themselves either having overtime 
pay or paid time and a half off. I would note that this is an 
issue which was previously enjoyed bipartisan support through 
the 104th Congress. Then President Clinton transmitted his own 
comp time proposal to Congress. The chairman of the full 
committee, George Miller, offered his own comp time substitute 
amendment on the House floor when the issue was considered and 
passed by the whole House.
    In closing, I would encourage the subcommittee to consider 
a comp time option for private-sector workers. It would be good 
for workers, good for women, and especially good for families 
because it would help them to better manage their personal and 
professional obligations. I would hope my colleagues can agree 
that employees and employers should not be prevented by an 
outdated law from 1938 from agreeing upon options that provide 
additional flexibility in work schedules.
    Thank you again, Madam Chairman, for the opportunity to 
testify.
    Chairwoman Woolsey. Thank you very much, Congresswoman.
    [The statement of Mrs. Biggert follows:]

 Prepared Statement of Hon. Judy Biggert, a Representative in Congress 
                       From the State of Illinois

    Thank you Madam Chair, I appreciate the opportunity to testify. I 
commend you for holding this hearing today. The issue of work-family 
balance is an important one that impacts most, if not all workers, at 
some point in their lives.
    The American workplace has undergone a dramatic change in 
composition, character, and demands. What was previously a static, 
agriculture and manufacturing-based economy with a mostly male 
workforce has evolved into a fast-paced, global services and high 
technology environment with nearly equal numbers of women and men in 
the workforce.
    The movement of mothers into the workplace has brought new 
challenges for American families. Families with two working parents now 
make up the majority of American families. Nearly two-thirds of all 
mothers with children under age three are currently in the workforce. 
Yet, these changes in the workplace and in the workforce have not been 
reflected in the law.
    As you will no doubt hear from the second panel of witnesses, 
Americans feel very strongly about trying to achieve a reasonable 
balance between the demands of a job and the responsibilities of a 
family. While these challenges perhaps confront working mothers to a 
greater degree, many workers--both men and women--are willing to make 
sacrifices in their jobs, careers and education to achieve more balance 
in their personal lives.
    Providing working men and women with more control over their work 
schedules should be a ``no brainer.'' Unfortunately, private sector 
employees and employers alike are constrained by the 1938 Fair Labor 
Standards Act or ``the FLSA.'' I think it's fair to say that the FLSA 
does not permit a great deal of flexibility, because it was designed 
for a different workforce with different needs.
    This subcommittee previously held a number of hearings on the FLSA. 
Out of those hearings came a number of proposals, perhaps the most 
significant of which was the ``Family Time Flexibility Act,'' or the 
so-called ``comp time'' bill. The concept behind the bill was simple: 
it was designed to help working men and women better manage work and 
family pressures by providing them with increased flexibility to spend 
quality time with their families. The bill proposed a common-sense 
solution: to allow private sector employees a choice that their 
colleagues working in federal, state and local governments have had for 
many years. That choice is the option of cash wages or paid time-and-
ahalf off as compensation for working overtime hours.
    I'm not suggesting that employees should be required to take 
compensatory time instead of overtime pay. Nor am I suggesting that we 
alter the way that overtime pay is calculated or the 40-hour workweek.
    What I am suggesting is that we allow private sector employers and 
employees, where there is agreement, to have the option of using comp 
time--paid time-and-a-half off--in lieu of overtime pay. Employees 
could then decide, based on their needs and that of their families, 
whether to choose paid time off or extra pay for working overtime.
    Obviously, there will always be working men and women who want and 
need the extra pay that comes from working overtime hours. Likewise, 
there may be some employers who decide that comp time just doesn't work 
for their particular business. But in situations where employers and 
employees can agree, Congress ought to allow hardworking men and women 
to choose for themselves either overtime pay or paid time-and-a-half 
off.
    I would note that this is an issue which has previously enjoyed 
bipartisan support. During the 104th Congress, then-President Clinton 
transmitted his own comp time proposal to Congress. The Chairman of the 
Full Committee, George Miller, offered his own comp time substitute 
amendment on the House floor, when the issue was considered and passed 
by the whole House.
    In closing, I would encourage the Subcommittee to consider a comp 
time option for private sector workers. It would be good for workers, 
good for women, and especially good for families because it would help 
them to better manage their personal and professional obligations. I 
would hope my colleagues can agree that employees and employers should 
not be prevented--by an outdated law from 1938--from agreeing upon 
options that provide additional flexibility in work schedules. Thank 
you again, Madam Chair, for the opportunity to testify.
                                 ______
                                 
    Chairwoman Woolsey. Panel number two will be seated. While 
we are seating the second panel, I want the Finkbeiner kids to 
know that your mother's going to be last, not first, so be 
patient.
    It appears, just so everybody knows what is going on, that 
we will have votes in just a few minutes, but we will have time 
first to go through the witness statements, 5 minutes each. Let 
me first introduce our witness panel, panel number two.
    Missy Quarberg, thank you for coming. Missy lives in Amery, 
Wisconsin, with her husband and two children, ages 3 and 5. She 
grew up in Grand Rapids, Minnesota. She graduated from Grand 
Rapids High School. She also attended the Brown Institute of 
Minneapolis.
    Barbara Wankoff is a television star. I turned on my 
television this morning, and she was on Good Morning, America. 
Barbara is the director of workplace solutions at KPMG, 
managing work-life programs and other initiatives, including 
building a mentoring culture and KPMG's Networks for Women. She 
has 25 years of professional experience in human resources. She 
joined KPMG in the year 2000. She has been at her current 
position since 2003. Prior to joining KPMG, she worked in human 
resources at Swissair and at the Chubb Group of Insurance 
Companies. Ms. Wankoff received her B.A. From Brandeis 
University.
    Melissa Lindsay lives in Maryland--hello, Melissa--with her 
husband and 6-month-old daughter. She grew up in Massachusetts 
and attended the public schools there. She attended Fitchburg 
State College where she majored in early childhood education. 
Ms. Lindsay is currently a bookkeeper at Marlin Steel Wire 
Products in Baltimore.
    Kristin Rowe-Finkbeiner is the cofounder and executive 
director of MomsRising.org, an on-line network with more than 
120,000 members working for policies to support families. With 
Joan Blades, the cofounder of MomsRising, she authored the book 
``The Motherhood Manifesto,'' which this year won the Ernesta 
Drinker Ballard Book Prize. She has written frequently about 
public policy, motherhood, health, and new feminism. In 2002, 
she was given an Excellence in Journalism award by the Society 
of Professional Journalists. She holds a bachelor's degree from 
Evergreen State College in Washington.
    Let me tell you how this all works if you have never done 
this before. You will have 5 minutes. When the light turns 
yellow, you will know you have 1 minute to wrap up. When the 
light is red, then that is about the end of it. Certainly, 
finish your thought; finish your sentence. Then when all four 
of you have spoken, we will probably go vote, and then we will 
come back, and we will have a round of questions from the 
Members.
    So we will start with you, Ms. Quarberg.

     STATEMENT OF MISSY QUARBERG, FORMER WAL-MART EMPLOYEE

    Ms. Quarberg. Good afternoon.
    My name is Missy Quarberg, and I want to thank the 
chairwoman and the subcommittee for inviting me to testify 
today on balancing work and family. I know a lot about that 
subject since I have tried to balance two full-time jobs, one 
as an employee and one as a mom.
    I am a married woman with two young children. We live in 
Amery, Wisconsin. My husband Dan is a car mechanic. My 
children, Joseph, who is 3 years old, and Jasmine, who is 5 
years old, are both developmentally delayed and need special 
care. While all working moms juggle many responsibilities, my 
children's special needs mean many visits to the doctors as 
well as regular therapy for both of them.
    Last year, my husband and I decided we wanted to begin 
planning to buy a house. Since we would need to save money, I 
would have to get a job, and I found one at our local Wal-Mart 
as a cashier. My starting pay was $7.30 an hour; 9 months 
later, I was earning $8.30 an hour working in Wal-Mart's 
optical department. My benefits for working at Wal-Mart 
included minimal life insurance and the option to pay into the 
health and dental plan. I paid $204 a month to cover the family 
plan. This was a huge cost, almost one-third of my monthly 
salary. Wal-Mart does not provide any vacation, sick or 
personal days in the first year. It did not take long to 
realize that Wal-Mart's policies make it extremely difficult, 
if not impossible, for Wal-Mart workers to balance work and 
family.
    For example, Wal-Mart has a policy called ``open 
availability scheduling,'' which means that employees have to 
work ever-changing schedules whenever Wal-Mart calls you in. 
When you never have regular work hours, how can you schedule 
doctors appointments for your children? Scheduling anything to 
do with your family is virtually impossible because you can be 
called in to work at any time, whenever you are needed, 
regardless of conflicts.
    Wal-Mart also has a very restrictive attendance policy. The 
company penalizes associates if you need to take a day off from 
work for medical, family or other reasons. If this is not hard 
enough, if you need to take 3 days off when you were scheduled 
to work, you run the serious risk of losing your job. When I 
first started at Wal-Mart, I worked the 3:00-to-11:00 shift. 
This schedule allowed me to be at home with my children during 
the day and work while my husband was home with them in the 
evenings. While it was hard to be away from my family in the 
evenings, and my husband and I barely saw each other, the 3:00-
to-11:00 schedule did help save money on childcare costs. We 
only needed to pay for the childcare for about 3 hours per day.
    After 9 months, I decided to move into the optical 
department. The job was attractive because of the slight pay 
raise and increased responsibilities, but unfortunately, the 
late shift was not available, and I started working from 1:00 
to 9:00. This meant we needed to pay for childcare for our 
children for more hours per day, which increased our childcare 
costs, and it became more difficult to have the time I needed 
for my children.
    Because of Wal-Mart's restrictive attendance policies and 
lack of paid sick leave or personal days, it was extremely 
difficult to take time off to tend to the needs of my two 
children. One time my daughter Jasmine had a cavity that needed 
to be fixed. I gave my supervisor more than 3 days' notice that 
I needed a couple of hours off to take her to the dentist's. I 
was given the time off, but when we were at the dentist's, we 
learned that my daughter actually needed an emergency root 
canal. Following the procedure, Jasmine became ill, and I 
needed to stay home with her. I called my work to tell them I 
was taking the entire day off to care for her. Later, when I 
got back to work, my supervisor reprimanded me for not giving 
her enough advance notice for taking the entire day off. I 
received a verbal warning and was told to watch it. My 
supervisor told me that, next time, I needed to plan these 
things more in advance. How could I have known that a simple 
procedure would become complicated and that my child would need 
an emergency procedure or that she would be ill afterwards? If 
any of you can plan your children's sudden health problems in 
advance, I would like to know about it.
    From that time on, I was very concerned about taking any 
days off. I did not want to lose my job. When my children were 
sick, I still took them to the childcare provider. I knew that 
I should be home with my kids to help them when they were ill. 
In addition, when I was sick, I usually went to work anyway. I 
felt like I was neglecting my children and my own health. I 
felt I had no choice if I wanted to keep my job. Clearly, given 
Wal-Mart's priorities and policies, the only way to keep my job 
was to be at work regardless of how sick I was or how sick my 
children were.
    Ultimately, given the childcare expenses and nightmare 
scheduling problems, I realized that working at Wal-Mart was 
not cost-effective or worth it to my health and to my family's. 
If I were going to work outside the home, I needed a new job 
that would provide me with some benefits, a more stable 
schedule and, hopefully, a more family-friendly work 
environment. I wanted to work again, but this time for a 
company that would help me contribute to my family, not take me 
away from them.
    While Wal-Mart and corporate America talk about family 
values, they certainly do not mean it. If they did, their 
policies would be more flexible to help employers and employees 
deal with legitimate family needs. They would not make it so 
difficult to be a good parent and a good employee. I believe 
that no worker, no father, no mother, no family member should 
ever have to choose between their jobs and their families.
    I hope that somebody, maybe one of you, can help working 
mothers like me. We need paid sick and family leave, flexible 
working hours and help with childcare so that we can do both of 
our jobs, taking care of our families while holding down our 
jobs. We need somebody to tell big companies like Wal-Mart that 
they are not above the law, and that, while low prices are 
important, so are people, people like me who help companies 
like them make a profit.
    Thank you again for letting me tell my story. I would be 
happy to answer any questions.
    Chairwoman Woolsey. Thank you.
    [The statement of Ms. Quarberg follows:]

     Prepared Statement of Missy Quarberg, Former Wal-Mart Employee

    I want to thank the Subcommittee for inviting me to testify today 
on the subject of balancing work and family. I know a little bit about 
that subject. I am married with 2 young children, ages 3 and 5. Both my 
children are developmentally delayed and need special care. This means 
going to the doctor and therapy for them often.
    Last year, I went to work at Wal-Mart. We needed the money and were 
looking at buying a house. I also felt that it was important for me to 
work. My starting pay was $7.30 an hour as a cashier. When I left Wal-
Mart 10 months later I was making $8.30 and working in the optical 
department as an optician.
    In 2005 before I started at Wal-Mart, the company implemented a 
series of policies designed to push out full-time, tenured workers and 
replace them with ``healthier'' workers in order to drastically cut its 
benefit costs. Since then, Wal-Mart has implemented a series of 
policies that serve these purposes and have made it increasingly 
difficult for me and other Wal-Mart workers to balance work and family.
    For example, Wal-Mart has a policy called ``opening availability 
scheduling,'' which means that you have to work changing schedules 
whenever Wal-Mart wants it.
    It also has a restrictive attendance policy, which penalizes you if 
you need to take a day off from work for medical, family or other 
reasons. After you have taken 3 days off when you were scheduled to 
work, you run the risk of losing your job.
    Initially, I worked evenings on the 3-11 shift. While this took me 
away from my family in the evenings, this allowed me to save on child 
care since my husband could be home in at night to take care of the 
children. When I started as an optician, this shift was no longer 
available to me and so I had to work from 1-9.
    Of course this increased my child care costs. And because of the 
Company's restrictive attendance policies, and the fact that I had no 
paid sick leave available to me, it was very difficult for me to take 
time out to tend to my children's needs.
    One time my daughter had a cavity and I gave my supervisor more 
than 3 days notice that I needed a couple of hours off to take her to 
the dentist. While at the dentist, it was discovered that my daughter 
needed an emergency root canal. My daughter who is very young was not 
feeling well afterward so I had to call into my work to tell them I was 
taking the entire day off. When I got back to work my supervisor 
scolded me for not giving her enough advance notice, and I was 
penalized under Wal-Mart's attendance policy. My supervisor told me 
that in the future, I needed to plan these things more in advance. How 
could I possibly plan my children's sudden health problems in advance?
    I was very concerned about taking any days off, so if my children 
were sick, I often took them to the child care provider even though I 
knew I should stay home with them. And when I was sick, I usually went 
to work anyway.
    Many of my co-workers had similar problems taking care of family 
and doing their job, especially with regards to taking care of their 
children when they were sick, and having scheduling problems with 
dropping off and picking up their children at day care or school.
    I ultimately chose to leave my job at Wal-Mart because when I 
factored in my child care expenses with my salary, it wasn't cost 
effective for me to continue working. I plan to look for a new job, 
which I hope will provide some benefits so that I am able to work again 
and contribute to my family.
    My employer--Wal-Mart--used to talk about family values, but my 
employer did not seem to care about family. No worker, no father, no 
mother should have to choose between their job and their family. No 
company, including the company I worked for, should want that.
    I hope that this Subcommittee will continue to do something to help 
working people, especially working mothers. We need policies like paid 
sick and family leave, flexible working hours and help with child care 
so that we can do both our jobs: to take care of our family and to hold 
down a job.
                                 ______
                                 
    Chairwoman Woolsey. I forgot to say that Ms. Quarberg was 
also a television star this morning.
    Ms. Wankoff.

            STATEMENT OF BARBARA WANKOFF, DIRECTOR,
                   WORKPLACE SOLUTIONS, KPMG

    Ms. Wankoff. Good afternoon.
    Chairwoman Woolsey. You need to turn that on.
    Ms. Wankoff. Good afternoon, Chairwoman Woolsey, Ranking 
Member Wilson and other members of the committee.
    My name is Barbara Wankoff, and I am KPMG LLP's national 
director of workplace solutions. I am responsible for the 
firm's work-life benefits and programs, supporting our goal to 
be an employer of choice. Thank you very much for the 
opportunity to testify before you today.
    KPMG, a tax, audit and advisory firm employing over 20,000 
employees and 1,700 partners in the United States, believes 
that helping employees manage their responsibilities both 
inside and outside of work is beneficial to everyone and to our 
bottom line. Our policies and programs support this belief. Our 
employees tend to be ambitious and career-oriented. They want 
to develop professionally and build a career, but they also 
have lives as parents, sons or daughters and spouses. So, at 
KPMG, we are promoting a culture of flexibility to help them 
manage the complexities of work and life.
    For example, among the many benefits we offer is generous 
paid time off. Employees have a minimum of 20 paid days they 
can use for vacation, sick time, sick children or for any other 
personal need. We recognize the critical need for new mothers 
to bond with their children, so we allow them to take up to 26 
weeks of leave, going beyond FMLA, while guaranteeing that 
their jobs will be waiting when they return, and this applies 
to births, adoptions or foster care placement; and by paying 
women 100 percent of their regular salaries for up to 8 weeks 
as well as additional weeks at two-thirds pay, we are making it 
easier for women to take the time off that they want. New 
fathers also receive 2 weeks of paid parental leave.
    We try to ease the transition for new mothers who are 
coming back to work by providing privacy rooms for 
breastfeeding and by allowing them to phase in their return to 
work instead of jumping back in full time. Other leave programs 
are also available, and one we are particularly proud of is a 
program called Shared Leave, which allows an employee who is 
caring for a seriously ill relative and who has exhausted his 
personal time to request an additional 12 weeks paid time off 
that is donated by fellow employees. This program is a Godsend 
for those facing difficult times and who need additional time 
off.
    We know from study after study that allowing for flexible 
work schedules can reduce stress and boost productivity and job 
satisfaction. That is why KPMG offers a range of such programs, 
including flex time, a compressed workweek, telecommuting, job 
sharing, reduced workloads, part-time work, and day-to-day 
flexibility where employees can leave the workplace to attend a 
school or a sports event or a doctor's appointment and return 
later to resume work.
    To further support working parents at KPMG, we contract 
with third-party providers to offer free backup childcare for 
the inevitable emergencies when the sitter is sick or bad 
weather closes the daycare center. It is a tremendous relief 
for parents to know they have access to safe, reliable backup 
care in these situations and to know they can meet both their 
work and family obligations. Similar backup care is available 
to those caring for an elderly relative even if the relative 
lives in a distant city.
    Oftentimes solid, timely information is what parents need 
to meet a challenge. That is why we provide a resource and 
referral program that makes it easy for them to gain 
information about such topics as parenting, wellness and 
emotional well-being. We also recognize that approximately one 
in five families in the U.S. has a child with special needs and 
that the parents of these children have unique challenges. To 
support these families, we have established a KPMG network 
which provides resources, information and a chance to connect 
and to support one another.
    Our commitment to a culture of flexibility and to helping 
working families has not gone unnoticed. KPMG has earned a spot 
on Working Mother Media's list of the 100 Best Companies for 
Working Mothers 10 times. We have made the Companies That Care 
honor roll four times. In this past year, Fortune Magazine 
named KPMG one of the 100 best companies to work for in 2007.
    Collectively the programs I have described meet the needs 
of both our employees and of our business. They demonstrate 
that we care about our employees and are committed to helping 
them balance work and life. These programs help us attract and 
retain key talent, which is critical to meeting clients' needs 
and to the overall success of the firm. At KPMG retention rates 
are up, and so is morale.
    Thank you for this opportunity to share KPMG's views with 
you today.
    Chairwoman Woolsey. Thank you.
    [The statement of Ms. Wankoff follows:]

            Prepared Statement of Barbara Wankoff, Director,
                       Workplace Solutions, KPMG

    Good Afternoon. My name is Barbara Wankoff and I am KPMG LLP's 
National Director of Workplace Solutions. I am responsible for the 
firm's work life benefits and programs supporting our goal to be an 
employer of choice.
    Thank you very much for the opportunity to testify before you 
today.
    KPMG, a tax, audit and advisory firm employing over 20,000 
employees and 1700 partners in the United States believes that helping 
employees manage their responsibilities both inside and outside of work 
is beneficial to everyone, and to our bottom line. Our policies and 
programs support this belief.
    Our employees tend to be ambitious and career oriented. They want 
to develop professionally and build a career, but they also have lives 
as parents, sons or daughters and spouses--so at KPMG we are promoting 
a culture of flexibility to help them manage the complexities of work 
and life.
    For example, among the many benefits we offer is generous paid time 
off. Employees have a minimum of 20 paid days they can use for 
vacation, sick time, sick children or any other personal need.
    We recognize the critical need for new mothers to bond with their 
children, so we allow them to take up to 26 weeks of leave, going 
beyond FMLA, while guaranteeing that their job will be waiting when 
they return. And this applies to births, adoptions or foster care 
placement. And by paying women 100% of their regular salary for up to 
eight weeks, as well as additional weeks at two-thirds pay, we are 
making it easier for women to take the time off that they want. New 
fathers also receive 2 weeks of paid parental leave.
    We try to ease the transition for new mothers coming back to work 
by providing privacy rooms for breastfeeding and allowing them to phase 
in their return to work instead of jumping back in fulltime.
    Other leave programs are also available and one we're particularly 
proud of is a program called shared leave, which allows an employee 
caring for a seriously ill relative, and who has exhausted their 
personal time, to request an additional 12 weeks paid time off that is 
donated by fellow employees. This program is a Godsend for those facing 
difficult times and who need additional time off.
    We know, from study after study, that allowing for flexible work 
schedules can reduce stress, and boost productivity and job 
satisfaction. That's why KPMG offers a range of such programs, 
including flextime, compressed work week, telecommuting, job sharing, 
reduced workloads, part time work and day to day flexibility where 
employees can leave the workplace to attend a school or sports event or 
doctor's appointment and return later to resume work. .
    To further support working parents at KPMG, we contract with third-
party providers to offer free back-up childcare for the inevitable 
emergencies when the sitter is sick or bad weather closes the daycare 
center. It's a tremendous relief for parents to know they have access 
to safe, reliable backup care in these situations and can meet both 
their work and family obligations. Similar backup care is available to 
those caring for elderly relatives, even if the relative lives in a 
distant city.
    Oftentimes, solid, timely information is what parents need to meet 
a challenge. That's why we provide a resource and referral program that 
makes it easy for them to gain information about such topics as 
parenting, wellness, and emotional wellbeing.
    We also recognize that approximately one in five families in the US 
has a child with special needs and that parents of these children have 
unique challenges. To support these families, we established a KPMG 
network, which provides resources, information and a chance to connect 
and support one another.
    Our commitment to a culture of flexibility and to helping working 
families has not gone unnoticed. KPMG has earned a spot on Working 
Mother Media's List of 100 Best Companies for Working Mothers ten 
times; we have made the Companies that Care Honor Roll four times, and 
this past year, Fortune Magazine named KPMG one of the 100 Best 
Companies to Work For in 2007.
    Collectively, the programs I've described meet the needs of both 
our employees and our business. They demonstrate that we care about our 
employees and are committed to helping them balance work and life. 
These programs help us attract and retain key talent, which is critical 
to meeting clients' needs and to the overall success of the firm. At 
KPMG, retention rates and morale are up. Thank you for this opportunity 
to share KPMG's views with you today.
                                 ______
                                 
    Chairwoman Woolsey. Ms. Lindsay.

           STATEMENT OF MELISSA LINDSAY, BOOKKEEPER,
                   MARLIN STEEL WIRE PRODUCTS

    Ms. Lindsay. Good afternoon, Chairwoman Woolsey, Ranking 
Member Wilson and members of the subcommittee.
    My name is Melissa Lindsay, and I am the bookkeeper at 
Marlin Steel Wire Products in Baltimore, Maryland. Thank you 
for this opportunity to appear today on behalf of Marlin Steel 
Wire and, most importantly, on behalf of my 23 excellent 
coworkers. I was pleased to learn of the subject of today's 
hearing, balancing work and family life, and I appreciate that 
the Members of Congress are taking the time to discuss the 
issues many working families face every day.
    Since 2003, I have worked for Marlin Steel Wire Products as 
its bookkeeper. Marlin was founded in 1968. We manufacture wire 
baskets, hooks, rack hooks, and wire forms. We also have the 
capability to produce custom products for many of our 
customers. Our products are used in the medical industry and by 
large international companies like Caterpillar, Boeing and 
Toyota.
    My husband Ed and I are both from Massachusetts. When Ed 
learned of an opportunity to join the Fort Meade Fire 
Department, we moved to Maryland in 2003. Soon after arriving 
in Baltimore, I got my job at Marlin. In 2006, we were proud to 
welcome our first child Jayden into our family. Prior to that I 
had worked 40 hours a week up until the very Friday before I 
had her, at which time I began my maternity leave for 6 weeks. 
While out on maternity leave, I made myself available by e-mail 
to assist Marlin if an occasion arose. I then returned to work 
part time on January 4th of 2007.
    Because my husband is a firefighter, he works crazy hours. 
For instance, he works 24-hour shifts and then has the next day 
off. Other times, Ed has to work mandatory overtime, which 
could be up to 24 hours. We knew that once Jayden joined our 
lives, we would need to find a way so that Ed and I could be 
home with her as much as possible to care for and raise her.
    I spoke with Drew Greenblatt, president and owner of 
Marlin, about how best to meet the needs of my family and those 
of Marlin. So, each week Drew and I sit down to determine my 
work schedule for the upcoming week. This is after I get a 
sense of what Ed's schedule will be. When Ed is home, I can 
spend a full day at the office. Other times, I work from home 
or work a partial day. There are even times when I bring Jayden 
to the office for important meetings. My fellow coworkers 
always warmly welcome both of us.
    Marlin Steel Wire Products provides all of its employees 
with great benefits and with a great environment in which to 
work. For instance, I participate in the 401(k) plan to which I 
contribute 10 percent of my earnings. My employer then matches 
40 percent of my contribution. I also receive paid time off for 
sick days, vacation days, holidays, and bereavement. Marlin has 
even paid for my college courses in accounting so I am better 
at my job and have additional skills that I can use the rest of 
my working life. I was even offered health insurance, but my 
husband and I chose to stay with the insurance through the fire 
department.
    I currently work part time, and this is my choice to meet 
the needs of my family. A normal workweek for me consists of 30 
or more hours either at the office or telecommuting from home. 
A typical day for me starts like any other mommy's day. I wake 
up--well, Jayden usually wakes me up--and then I get dressed, 
prepare us both for breakfast. If it is a stay-at-home day, I 
turn on my computer and check my work e-mail and address 
anything that needs attention. I leave the computer on most of 
the day so that, as soon as I am notified of new e-mail, I can 
quickly respond. If it is a go-to-the-office day, I then leave 
my daughter, and she stays home with Daddy. Occasionally, there 
are issues that arise that require me to go into the office, so 
Jayden and I will go to the office together.
    Recently, Jayden and I came to the office for a meeting. 
She is 6 months old now, so she is very awake and very alert. 
She was staring at Drew, the president, the entire time, 
fixated on his voice and on exactly what he was saying almost 
as if she understood. She just sat there and smiled the entire 
time he was talking. A few employees actually thank me for 
bringing her by. It brightens their day, they tell me.
    The fact that I am able to do this and not miss these 
important meetings is one of the things I love most about my 
job. Without the family-friendly atmosphere of Marlin Steel 
Wire, we would not be able to raise our daughter the way we 
want to. You might be thinking to yourself, ``Wow, did Melissa 
find the right job or what?'' Well, I did. I know that the main 
reason I was able to ask for and to receive these benefits is 
because I work hard at my job and take pride in being a part of 
the team at Marlin, and my boss is very employee-friendly.
    In working closely with Drew and in managing Marlin's daily 
operations, I can personally attest to how challenging it is 
for a small wire company in Baltimore to succeed against 
cheaper products from our larger competitors, many in foreign 
countries with little or no environmental and labor laws, not 
to mention cheaper taxes.
    I think we are successful because of the hard work of 
everyone at Marlin to produce the quality of product that more 
than meets the needs of our customers. Plus, I believe that 
Drew goes the extra mile to take care of each of us. I would 
like to share with you some of the benefits my coworkers also 
take advantage of.
    Like me, one of the employees, Dong Moon, works part time. 
He is an operator of one of our assembly robots. He is in his 
midseventies and participates in the 401(k) plan. Aaron 
Heisler, who is an engineer and who has a longer commute than 
most of us, takes care of telecommuting.
    Chairwoman Woolsey. Try to sum up, and then we will use 
those examples in questions and answers.
    Ms. Lindsay. Okay. Sure.
    It is clear to see when a company is successful, it is 
because of its employees. Thankfully for all of us at Marlin, 
our employer realizes this and goes that extra mile to help 
meet our personal needs.
    I would like to thank you for this opportunity today, and I 
would be more than welcome to answer your questions.
    Chairwoman Woolsey. Thank you very much.
    [The statement of Ms. Lindsay follows:]

           Prepared Statement of Melissa Lindsay, Bookkeeper,
                       Marlin Steel Wire Products

    Good morning, Chairwoman Woolsey, Ranking Member Wilson and members 
of the subcommittee. My name is Melissa Lindsay. I am the bookkeeper at 
Marlin Steel Wire Products in Baltimore, MD. Thank you for the 
opportunity to appear today on behalf of Marlin Wire, and most 
importantly, my 23 excellent coworkers. I was pleased to learn of the 
subject of today's hearing--balancing work and family life--and 
appreciate that members of Congress are taking the time to discuss the 
issues many working families face every day.
    Since 2003, I have worked for Marlin Steel Wire Products as its 
bookkeeper. Marlin was founded in 1968. We manufacture wire baskets, 
hooks, rack hooks and wire forms. We also have the capability to 
produce a wide range of custom products for our customers. Our products 
are used in the medical industry and by large international companies 
like Caterpillar, Boeing and Toyota.
    My husband Ed and I are from Massachusetts. When Ed learned of an 
opportunity to join the Fort Meade Fire Department, we moved to 
Maryland in 2003. Soon after arriving in Baltimore I got a job at 
Marlin. In 2006, we were proud to welcome our first child, Jayden, into 
our family. Prior to that I worked forty hours a week until the Friday 
before I had my daughter in November, at which time I began my 
maternity leave for 6 weeks. While out on maternity leave I made myself 
available by email to assist Marlin Steel Wire if an occasion arose. I 
then returned to work on a part-time basis on January 4, 2007.
    Because my husband is a firefighter, he works crazy hours. For 
instance, he works 24 hour shifts and then has the next day off. Other 
times, Ed has to work mandatory overtime, which could be up to 24 hours 
at a time. We knew that once Jayden joined our lives, we would need to 
find a way so that Ed or I could be home as much as possible to care 
for and raise Jayden. I spoke with Drew Greenblatt, President and owner 
of Marlin, about how best to meet the needs of my family and Marlin 
Steel Wire.
    So each week, Drew and I sit down to determine my work schedule for 
the upcoming week. This is after I get a sense of when Ed will be 
working. When Ed is home, I can spend a full day at the office. Other 
times, I work from home or work a partial day. There are even times 
when I bring Jayden to work for important meetings. My fellow coworkers 
always warmly welcome both of us.
    Marlin Wire Products provides all of its employees great benefits 
and a great environment to work. For instance, I participate in the 
401(k) plan, to which I contribute 10 percent of my earnings. My 
employer matches 40 percent of my contribution. I also receive paid 
time off for sick days, vacation days, holidays and bereavement leave. 
Marlin even paid for my college courses in accounting, so I am better 
at my job and have additional skills that I can use the rest of my 
working life. I was even offered health insurance, but I declined and 
Ed and I chose to stay with his insurance through the fire department.
    I currently work part-time, and this is my choice to meet my needs 
and the needs of my family. A normal work week for me consists of 30 or 
more hours either at the office or telecommuting from home. A typical 
day for me starts like any other Mommy's day. I wake up, well Jayden 
usually wakes me up, and then I get Jayden dressed, and prepare us both 
breakfast. If it's a stay at home day, I turn on my computer and check 
my work email and address anything that needs attention. I leave the 
computer on most of the day so as soon as I am notified of a new email 
I can quickly respond. If it is a go to the office day then I leave and 
my daughter stays home with Daddy. Occasionally, there are issues that 
arise that require me to go into the office, so Jayden and I will go to 
the office together. Recently, Jayden and I came to the office for a 
meeting. She is 6 months now so she is always very awake and alert. She 
stared at Drew the entire time fixated on his voice and what he was 
saying almost as if she understood. She just sat there and smiled the 
entire time he was talking. A few employees actually thank me for 
bringing her by. It brightens up their day, they tell me. The fact that 
I am able to do this and not miss these important meetings is one of 
the things I love most about my job. Without the family friendly 
atmosphere of Marlin Steel Wire, we wouldn't be able to raise our 
daughter the way we want to.
    You might be thinking to yourself, ``Wow, did Melissa find the 
right job or what?'' Well, I did. I know that the main reasons I was 
able to ask for and receive these benefits is because I work hard at my 
job, take pride in being a part of the team at Marlin, and my boss is 
employee friendly. Working closely with Drew in managing Marlin's daily 
operations, I can personally attest to how challenging it is for a 
small wire company in Baltimore to succeed against cheaper products 
from our larger competitors, many in foreign countries with little or 
no environmental and labor laws, not to mention cheaper taxes. I think 
we are successful because of the hard work of everyone at Marlin to 
produce a quality product that more than meets the needs of our 
customers. Plus I believe that Drew goes the extra mile to take care of 
each of us.
    I'd like to share with you some of the benefits my coworkers take 
advantage of at Marlin. Like me, Dong Moon works part-time. He is an 
operator of one of our assembly robots. He is in his mid-70's and 
participates in the company 401(k) plan. Aaron Heisler, an engineer, 
has a longer commute than most of us, so he takes advantage of 
telecommuting too. He sometimes transmits blue prints for product 
designs remotely from his home office. Right now, Chung Lim, another 
robot operator, is taking five weeks of vacation in Korea. Hector 
Carmona, a model maker, has taken a month off every July since the 
1990's to visit family in the Dominican Republic. Our plant manager, 
Simon Matthews, took advantage of Marlin's tuition benefit and attended 
college by taking night courses in Mechanical Engineering. Finally, 
last week, Kendall Browning, a fixture maker, took the morning off to 
present to his daughter's class for ``career day''.
    It's clear to see that when a company is successful it is because 
of its employees. Thankfully for all of us at Marlin, our employer 
realizes this and goes the extra mile to help us meet our personal 
needs. Drew tells us all the time that it is so hard to find a skilled, 
dedicated person to hire that our team can rely on to do the job, so he 
works hard to keep us. I feel blessed that Drew found me and that I now 
have a job that allows me to be there for my family and to build a 
company that provides good jobs to its employees and make good products 
for its clients.
    I thank you for the opportunity to speak today about not only my 
story but that of the wonderful people at Marlin whom I have the 
pleasure of working with everyday. I would be happy to answer your 
questions.
                                 ______
                                 
    Chairwoman Woolsey. Ms. Finkbeiner.

  STATEMENT OF KRISTEN ROWE-FINKBEINER, COFOUNDER, MOMS RISING

    Ms. Rowe-Finkbeiner. Hello. Thank you for holding this 
critically important hearing today. It is an honor to be here.
    I am Kristin Rowe-Finkbeiner, and I am here today on behalf 
of MomsRising.org, a new, fast-growing, on-line grassroots 
organization that works to advocate for family-friendly 
policies and programs. Our membership is open to everyone who 
is a mom and to everyone who has ever had a mom.
    MomsRising addresses issues that are critically important 
to a wide cross-section of our Nation. Eighty-two percent of 
women in the United States have children by the time they are 
44 years old, and we all have mothers. Only a little over a 
year old, MomsRising already has more than 120,000 members 
across the United States, and we are growing quickly at a rate 
of 500 to 3,500 members a week lately. This rapid growth speaks 
to the fact that we have touched a nerve.
    Americans are struggling to balance work and family, and 
they want to see policymakers put laws in place that will let 
them fulfill their responsibilities both at work and at home. 
This is crucial not only because it is the right thing to do, 
but also because in order to have a healthy economy now as well 
as in the future, we must also have healthy families.
    Why are these issues pressing right now? Well, our Nation 
has changed over the past several decades, as many other people 
have testified to today, but our country's work-family policies 
have not changed much. Currently a full three-quarters of 
American mothers are in the labor force, yet we are stuck with 
a 1950 support structure.
    It is time for our policies to catch up to the dynamics of 
modern life, and we are so excited to be here today talking 
about just that. This is essential because, without these 
policies, American families are in trouble. A full quarter of 
American families with children under 6 years old are living in 
poverty, and having a baby is, in fact, a leading cause of the 
poverty spell, which is a time when your income dips below what 
is needed for basic expenses like food and rent.
    Nine million children, one in nine, have no health care 
coverage at all, and the lack of after-school care and flexible 
work options means that 40,000 kindergartners are at home, each 
day, alone after school.
    Our country's lack of family-friendly policies also drags 
down mothers' wages. Women without children now make about 90 
cents to a man's dollar; women with, 73 cents; and single moms 
make the least at about 60 cents. Countries with family-
friendly policies and programs in place, like paid family leave 
and subsidized childcare, do not have pay gaps as wide as we do 
here, and we are, quite frankly, behind the rest of the world 
when it comes to family-friendly policies. For example, in over 
173 countries studied in a Harvard University study, there were 
only 4 countries that do not provide some form of paid family 
leave for new mothers. The four countries that did not and do 
not provide paid leave for new mothers are the United States, 
Papua New Guinea, Swaziland, and Liberia. In fact, we lack many 
family-friendly programs that citizens of most other 
industrialized countries take as a given, programs like 
universal health care coverage, paid family leave and a minimum 
number of paid sick days.
    These and other critically important family policies are at 
the core of MomsRising's agenda, which is spelled out with the 
acronym MOTHER. ``M'' is for maternity and paternity leave. 
``O'' is for open, flexible workplaces. ``T'' is for television 
and other after-school programs. ``H'' is for health care for 
all kids. ``E'' is for excellent childcare. ``R'' is for 
realistic and fair wages.
    If we want to say that we have family values, then we also 
have to value families by passing the kind of policies that 
have long been championed by groups like the National 
Partnership for Women and Families, the National Women's Law 
Center, the Children's Defense Fund, FamiliesUSA, and 9to5. 
These are five of MomsRising's more than 80 nationally aligned 
organizations that are working together. We need to pass 
policies like the Balancing Act, like the Healthy Families Act, 
as well as fully fund and reauthorize the State Children's 
Health Insurance Program and the Childcare and Development 
Block Grant.
    MomsRising is actively engaging members to support family-
friendly policies. For example, in February we sent out an e-
outreach, asking our members to support the Healthy Families 
Act, and in less than 36 hours over 17,000 e-mailed letters 
went in to Congress. But we do much more than generate e-mailed 
letters. MomsRising's members have held hundreds of house 
parties across the country, and are still holding them, to 
watch the Motherhood Minutes documentary film. Our offices are 
overflowing with decorated baby ONEsies, which you can see on 
line on our Web site if you would like to see some pictures, 
but we are exhibiting those baby ONEsies at forums around the 
country.
    MomsRising was instrumental in getting paid family leave 
passed in Washington State this year, making it the second 
State in the Nation to have paid family leave after California, 
and we are working right now in New York, New Jersey and in 
Oregon, as well as elsewhere, to have similar laws be passed. 
We will continue to work with our more than 120,000 members--
and growing quickly--who are in every State to support Federal 
legislation, again like the Healthy Families Act and the 
Balancing Act, as well as to support State legislation that 
makes workplaces more family friendly and to speak out and to 
take action on the issues that matter most to families, because 
when this many people are having the same problem at the same 
time, we have a national structural issue that needs to be 
addressed and not an epidemic of personal failings. It is time 
to make those changes.
    Thank you for leading the way.
    Chairwoman Woolsey. Thank you very much.
    [The statement of Ms. Rowe-Finkbeiner follows:]

       Prepared Statement of Kristin Rowe-Finkbeiner, MomsRising

    Madam Chairwoman and Members of the Committee: I am Kristin Rowe-
Finkbeiner and I'm here today on behalf of MomsRising.org, a new, fast-
growing online grassroots organization that works to promote and 
advocate for family-friendly policies. Our membership is open to 
everyone who is a mom, and everyone who has a mom. MomsRising addresses 
issues that are critically important to wide cross-section of our 
nation: 82% of women in the United States have children by the time 
they are forty-four years old; and we all have mothers.
    Only a little over a year old, MomsRising already has more than 
120,000 members across the United States. And we're growing quickly--at 
a rate of 500 to 3,000 new members a week. That rapid growth speaks to 
the fact that we have touched a nerve. Americans are struggling to 
balance work and family, and they want to see policy makers put laws in 
place that will let them fulfill their responsibilities at work without 
giving short shrift to their families. This is crucial, not only 
because it is the right thing to do, but also because in order to have 
a healthy economy now, as well as in the future, we must also have 
healthy families.
    Why are these issues pressing right now? Our nation has changed 
over the past several decades, but our country's work/family policies 
have not: Currently a full three-quarters of American mothers are in 
the labor force. Yet we are stuck with a 1950s support structure. It's 
time for our policies to catch up to the dynamics of the modern 
American family.
    This is essential because without these policies, American families 
are in trouble: A full quarter of families with children under six 
years old live in poverty; and having a baby is a top cause of 
``poverty spells'' in this country--a time when a family's income dips 
below what it needs for basic living expenses like food and rent. Nine 
million children--one in nine--have no healthcare coverage at all. And 
the lack of afterschool care and flexible work options are two of the 
main reasons that 40,000 kindergarteners are home alone each day after 
school.
    Our country's lack of family-friendly policies also drags down 
mothers' wages. While women without children make 90 cents to a man's 
dollar, women with children make only 73 cents to a man's dollar, and 
single mothers, about 60 cents to a man's dollar.
    Countries with family-friendly policies and programs in place--like 
paid family leave and subsidized child care--don't have wage gaps as 
wide as we do here. And we are, frankly, behind the rest of the world 
when it comes to family-friendly policies.
    For example, of the 173 countries that were the subject of a study 
of international workplace policies by Dr. Jody Heymann of Harvard and 
McGill Universities, there were only four countries that didn't provide 
some form of paid family leave for new mothers. The four countries that 
did not--and do not--have some form of paid leave for new mothers are 
Papua New Guinea, Swaziland, Liberia and the United States.
    In fact, we lack many family-friendly programs that citizens of 
most other industrialized countries take as a given. Programs like 
universal health care coverage, paid family leave, and a minimum number 
of paid sick days. Of the 20 most competitive economies in the world, 
the U.S. is the only one that does not require businesses to provide 
paid sick days.
    These and other critically important family policies are the core 
of MomsRising's agenda which is spelled out in the word ``mother.'' M 
for Maternity and Paternity Leave; O for Open Flexible Work; T for 
Television and other Afterschool Programs; H for Healthcare; E for 
Excellent Childcare; R for Realistic and Fair Wages.
    If we want to say we have family values; then we have to also value 
families by passing the kinds of policies that have long been 
championed by groups like the National Partnership for Women and 
Families, the National Women's Law Center, the Children's Defense Fund, 
FamiliesUSA, and 9to5, five of MomsRising's more than 80 aligned 
organizational partners. Policies like the Healthy Families Act, and 
the Balancing Act, as well as fully funding and reauthorizing the State 
Children's Health Insurance Program (SCHIP); and the Child Care and 
Development Block Grant.
    We, as a nation, are competing in a global economy in which all the 
other top economies are investing in their children and families while 
we lag behind. Children, quite literally, are the economic engine of 
our future; and study after study shows that investing in children and 
family policies now, saves funds later because of less reliance on 
government entitlement programs, less severe illnesses, lower infant 
mortality, fewer grade repetitions, less interaction with the criminal 
justice system, and the list of areas where costs are saved goes on. It 
is horribly short-sighted to ignore these pressing national issues.
    MomsRising actively and regularly engages members to support 
family-friendly policies. For example, in February, we sent out an e-
outreach asking our members to urge their Members of Congress to 
support the Healthy Families Act. In less than 48 hours we had 
generated more than 17,000 emailed letters.
    But we do much more than generate emailed letters. MomsRising 
members have held hundreds of house parties across the country to 
discuss the issues they care about and to screen The Motherhood 
Manifesto film which delves into the MOTHER agenda. Our offices are 
overflowing with thousands of decorated baby ONEsies that our members 
have sent us as a show of support for family-friendly policies--and 
we're getting ready to exhibit those ONEsies at forums around the 
country. MomsRising was instrumental in getting paid family leave 
passed in
    Washington State--making it only the second state to have paid 
leave, after California. And we're working in New York, New Jersey, 
Oregon and elsewhere to get similar laws passed.
    We'll continue to work with our more than 120,000 members (and 
growing), who are in every state, to support federal legislation like 
the Healthy Families Act and the Balancing Act, as well as to support 
state legislation that makes workplaces more family-friendly, and to 
speak out and take action on the issues that matter most to families--
because when this many people are having the same problems at the same 
time, we have a national structural issue that needs to be addressed, 
and not an epidemic of personal failings. It's time to make those 
changes.
    Thank you.
                                 ______
                                 
    Chairwoman Woolsey. I thank all four of you. We do not have 
votes yet, so we are going to start right off with questions.
    I am going to start with a question for you, Ms. Wankoff. 
Wankoff?
    Ms. Wankoff. That is right.
    Chairwoman Woolsey. As a human resources professional and 
as a single mom, I had no idea that my pushing what my company 
was doing right would make such a difference to the workers, 
but it was always clear to us--and this was clear in the 1970s 
and 1980s--that family-friendly policies would make the 
difference.
    What is offered by KPMG, is that offered to everybody in 
the company or to just some level of workers?
    Ms. Wankoff. Employees at all levels are offered the 
benefits that I described today. They are offered to the most 
senior as well as to the most junior benefits-eligible 
employees. We have very few handfuls of employees who work only 
a few hours a week for us who do not get benefits.
    Chairwoman Woolsey. Well, then, Ms. Quarberg, how would 
that have made a difference in your life and with your children 
and your family? Would you still be in the workforce?
    Ms. Quarberg. Let us put it this way: If I could work for 
her company, I would be more than happy to be there, and I 
would stay there. It would benefit my family greatly if we had 
that kind of company.
    Chairwoman Woolsey. Ms. Lindsay, why do you think your 
employer is willing to risk higher costs and competing with 
outsourcing? I mean, when you were speaking, I kept thinking 
that is exactly the kind of company that is going overseas.
    Has anybody measured productivity and how much less 
turnover you have?
    Ms. Lindsay. He just really focused on having good 
employees who want to work at the company, and he believes that 
it should be made here in the U.S.
    Chairwoman Woolsey. Kristen, it is really nice to see you 
here today. I have been working with you all along and with 
Joan Blades.
    What are other women, working parents saying to you? What 
is their number one most important priority?
    Ms. Rowe-Finkbeiner. You know, it was really interesting. 
We did a survey of our members, and I talked about the MOTHER 
acronym, M-O-T-H-E-R, and all of them came up almost equally as 
top priorities. We really have a Nation where many people are 
juggling multiple things at the same time. They are juggling 
work. They are juggling children. They come up pretty much 
evenly. Health care pops a little bit up higher, but I think 
that is why it is so important for your bill, the Balancing 
Act, to be brought forward as a whole solution together that we 
can look at as addressing these issues.
    Chairwoman Woolsey. I saw ``SiCKO'' last night, the 
premiere of Michael Moore's new film. It is going to start a 
whole revolution in this country, let me tell you.
    Why do you think the United States is lagging behind all of 
industrial countries in these family-friendly policies?
    Ms. Rowe-Finkbeiner. Well, that is the million-dollar 
question. I think part of our issue here right now is that we 
have a corporate culture of short-term monetary returns as 
opposed to long-term returns. Many CEOs, for example, are given 
bonuses based on their quarterly reports, but what we have 
right now, as many of us talked about, is that we are competing 
in a global economy where the majority of our other competitive 
nations are providing these family-friendly policies and 
programs. This is critically important because all of the 
studies show that, when you invest in young children, invest in 
families, you make back more money later. So, for every $1 
invested in, for example, early childcare, early childhood 
development, the smallest number I have seen back is $7. The 
biggest is $27. It really runs the gamut, but I have never seen 
it come out negatively. So investing in children and families 
now is critically important to our global competitiveness later 
because children are the economic engine of our future.
    Chairwoman Woolsey. Thank you very much.
    Who is the ultimate loser when we make parents or 
grandparents stay at work instead of going to their kids' 
school meeting with the teacher or to watch a school play?
    Missy.
    Ms. Quarberg. Ultimately the children lose out.
    Also, just to let you know, too, in the time that my 
children have been going to early childhood, my husband has not 
been able to come to any of the conferences, the end-of-the-
year picnics or anything, or even to their graduations, because 
he has had to stay there to work to make the money, and right 
now he feels awful because he has missed out on so much.
    So I sorely believe that it is mostly the children who will 
lose out, but it is also probably the other parent, too.
    Chairwoman Woolsey. And the parent. All right.
    Thank you very much.
    Mr. Wilson.
    Mr. Wilson. Thank you again, all of you, for being here 
today.
    Ms. Lindsay, I want to apologize. While you were speaking, 
I had to jump up. I was trying to balance. We have a group of 
Scouts from my daughter-in-law's home church, Saint Peter's 
Catholic Church of Columbia, and so I was racing out there. 
Indeed, while you were speaking, I was thinking of Scouting, 
and my wife--I give her so much credit. We have got four sons. 
All four are Eagle Scouts. I always point out that this would 
not have been possible if it had not been for the efforts of my 
wife, and I point out very clearly that--it can be so easily 
understood--there is no dad who knows how to put on a merit 
badge on a sash. So, again, I appreciate her efforts, and it 
has been reflected in what you are doing, too.
    Ms. Lindsay, it sounds like you have got an ideal working 
situation, given your needs and time limitations, in terms of 
balancing your family's responsibilities. You noted in your 
testimony that you worked full time until your daughter was 
born. When did you first approach your employer about working 
on a reduced work schedule?
    Ms. Lindsay. When I was around 5 months pregnant, I went to 
him and we discussed different options, if I could work from 
home, if I needed to still come to the office, and that is how 
we came up with the solution. It was best if I could come to 
the office on some days, but then on other days still have the 
opportunity to work from my house.
    Mr. Wilson. Additionally, as the company's bookkeeper, you 
are aware of the challenges, and it has been pointed out by 
Chairman Woolsey, too, that small businesses are trying to 
maintain competitiveness in the global environment that we are 
in and to compete with foreign businesses.
    Would you say that part of Marlin Steel Wire's ability to 
be competitive lies with its commitment to its workforce?
    Ms. Lindsay. Oh, absolutely. The benefits that we're given, 
even the limited amount of hours that I work, I am still given 
vacation, sick time, it really makes it a good place to work 
and it makes you work harder at your job to produce the quality 
of products.
    Mr. Wilson. It is very impressive. Another company I 
certainly have a high regard for is KPMG, and I am delighted 
Ms. Wankoff that you're here. Your company clearly has placed a 
high priority on its employees and created a culture in which 
workforce flexibility not only is offered, but encouraged.
    Could you elaborate on some of the criteria that are used 
to decide which companies make it to the list of the best 
companies to work for and best companies for working mothers?
    Ms. Wankoff. Well, I can't really speak for how those lists 
are determined, that is really up to the Working Mother Media 
and Fortune Magazine. We do know that we are ranked with our 
competitors according to the policies that we offer, as well as 
the utilization of those programs. And there is an extensive 
application process that we complete and provide lots of 
information on those statistics to the organizations.
    Mr. Wilson. You noted in your testimony that KPMG believes 
that helping employees manage their responsibilities both 
inside and outside of work is beneficial to everyone.
    Is it difficult in today's environment--and you are with 
HR, I am impressed that you have been in that for the few years 
you have been because that is a tough position--is it difficult 
to find enough qualified employees?
    Do you believe that KPMG's benefits have a large impact in 
the company's ability to attract and retain qualified 
employees?
    Ms. Wankoff. Absolutely. We are always seeking out top 
qualified employees, and we believe that our programs and 
policies and, clearly, our reputation as a employer of choice 
plays into the decision that potential candidates make as to 
whether to come to work for us or not.
    Mr. Wilson. Thank you again. In the interest of time since 
we will be voting soon, I yield the balance of my time.
    Chairwoman Woolsey. I will go to Mr. Bishop and Mr. Payne, 
and we might tie it up so you don't have to wait 45 minutes.
    Mr. Bishop.
    Mr. Bishop. Thank you, Madame Chair, thank you very much 
for holding this hearing. And to the panel, thank you all very 
much for your testimony.
    Ms. Wankoff, in a previous life I was a senior 
administrator of a college, and KPMG was our auditing firm; and 
they did a first-rate job and were always delightful to work 
with. Now I understand why. I am very impressed with what KPMG 
has done for their workers.
    Let me ask, your policy of paid sick days, vacation times, 
do you have any incidents where you believe that the generosity 
is being abused or taken advantage of?
    Ms. Wankoff. Absolutely not. We do track time that people 
take and we do not track why someone is taking the days, they 
are there for their use. It is built into our business model 
that people can take the time.
    And frankly, we encourage them to take it, because we 
believe that that does reenergize our employees when they are 
taking time off, whether it be for vacation or for their own 
sick time to recover or for the sick time for their children 
and their families.
    Mr. Bishop. How would you characterize some of the 
important measures such as productivity, longevity, things of 
that type?
    Ms. Wankoff. Our retention has improved over the last 5 
years. Turnover is down from 26 percent to 18 percent, and it 
is a 30 percent reduction over that period of time. And we 
strongly believe that our programs and policies and our strong 
message about being an employer of choice has contributed to 
that reduction in turnover.
    Mr. Bishop. Ms. Lindsay, your company seems to be similarly 
enlightened to KPMG. How would you characterize employee morale 
and productivity and longevity at your company?
    Ms. Lindsay. I agree with her also. If people take the time 
off and get the rest that they need they are more apt to be 
more productive. And if they given vacation, they take a 
vacation and enjoy it, they are more happy when they do come to 
work.
    As far as turnover, we don't have much turnover either.
    Mr. Bishop. Ms. Quarberg, how would you have characterized 
morale at your previous employer and productivity?
    Ms. Quarberg. First of all, can I have a job with you two?
    Mr. Bishop. That is why we had the hearing.
    Ms. Quarberg. I have to admit, I don't care for what Wal-
Mart stands for as far as their policies are concerned. I did 
grow to care about the people that I worked with, but as far as 
company policies, if you were to bring something up as far as 
the attendance policy or if something came up with someone in 
their family, morale would immediately go downward. It is bad.
    Mr. Bishop. One final thing, if I have time: Just from my 
own experience with KPMG, I know you are very quantitative in 
terms of the assessments that you make. Is it fair for me to 
assume that KPMG has done, in effect, a cost-benefit analysis 
and has made the judgment that making this kind of investment 
in their employees pays off in terms of money saved on new 
training and all of those issues? Is this a reasonable 
assumption for me to make?
    Ms. Wankoff. Absolutely, knowing that we quantify 
everything.
    One example, we did look at the backup child care program 
and determined that we get a 221 percent ROI on the cost of 
that program for us. It brings our employees back to work with 
peace of mind that their children are cared for in a safe and 
healthy environment.
    Mr. Bishop. Thank you very much.
    In the interest of time, I will yield back as well.
    Chairwoman Woolsey. Mr. Payne.
    Mr. Payne. Thank you very much. I was going to ask 
questions about the child care, do you--the companies that are 
rated higher, do they provide child care at the institutions 
primarily?
    Ms. Wankoff. I really can only speak to what KPMG offers. I 
know that our competitors tend to offer similar programs, and 
we do try to stay competitive.
    We offer a backup care program versus an onsite program, 
because many of our employees do not go into KPMG offices every 
day, they are traveling to client sites and that does change 
over time. So the solution for us that makes sense for our 
employees and our workforce is the backup care program.
    I think the----
    Mr. Payne. What is the backup care program?
    Ms. Wankoff. When your primary care breaks down, which it 
does, on average, six to eight times a year, whether it is 
because the sitter is sick or there is a gap from when school 
closes until camp starts or other, you are able to secure 
either center-based or in-home care, really immediately; you 
make a phone call and within probably an hour or 2 care can be 
set up.
    Mr. Payne. That is amazing. I just raised a question about 
child care because I know it is probably the most difficult for 
a single parent. I was a teacher, and I was a single parent 
with two very young children, raising them; and the problem 
was, my kids always had a temperature, it seemed like, so you 
have to try to leave your place to go pick up the child because 
the day care people don't want to be left there with it.
    So I think that is probably one of the strongest parts that 
any company could have to really provide for that child care.
    We have 5 minutes left. Just finally too, do companies 
still have family picnics or holiday parents and those things? 
Do you find that those kinds of things happen and if that has 
anything to do with the morale of the company?
    Ms. Wankoff. We certainly look for opportunities to both 
celebrate our successes, as well as get together with family, 
so we do a lot of that. We have 93 offices around the country 
and many of those happen on a local basis, whether they are 
holiday parties, or family picnics or other outings, ball games 
or circus or things like that, to really build and strengthen 
the KPMG family community.
    Mr. Payne. Thank you very much. I yield back.
    Chairwoman Woolsey. Well, I want to thank all four of you 
for being here, and for sharing your time and your information 
with us. What a difference a family-friendly workplace makes.
    We have two examples here. We have the difference between 
Ms. Lindsay, who had support at work, and Ms. Quarberg, who 
clearly did not. And I have to say to everybody in this room 
and to my colleagues and anybody that is going to pay attention 
to this; this inequality is unacceptable. Ms. Quarberg should 
not have had to leave her job because of child care expenses 
being too high and because her job was threatened, because her 
child needed her to be at home occasionally. We should have 
laws in place that ensure that she and others in her situation 
have the same opportunities of support that Ms. Lindsay and the 
workers at KPMG have.
    Today, was our initial hearing on the challenges of 
balancing work and family, and we learned some very valuable 
information. And we will take that along with us as we have 
other hearings. There will be other hearings. We are the 
family-friendly side of the aisle and we will be putting 
together legislation that will be all-encompassing and 
hopefully make a difference over the long run for families.
    And, Kristen, we will be using you, as always, as a guide 
in that regard. So thank you very much, all of you for being 
here.
    Any member who wishes to submit follow-up questions in 
writing to the witnesses should coordinate with the majority 
staff within 7 days.
    Chairwoman Woolsey. Without objection, this hearing is 
adjourned.
    [Whereupon, at 2:44 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
